No. ________

In the Supreme Court of the United States
_____________

HOWARD L. BALDWIN AND
KAREN E. BALDWIN,
A MARRIED COUPLE, PETITIONERS
v.
UNITED STATES OF AMERICA, RESPONDENT
_____________
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
_____________
$33(1',;
_____________
ROBERT W. KEASTER
CHAMBERLIN & KEASTER LLP
16000 Ventura Blvd.
Suite 301
Encino, CA 91436

PHILIP HAMBURGER
MARK CHENOWETH
ADITYA DYNAR
Counsel of Record
NEW CIVIL LIBERTIES ALLIANCE
1225 19th St. NW, Suite 450
Washington, DC 20036
(202) 869-5210
Adi.Dynar@NCLA.
onmicrosoft.com

Counsel for Petitioners

APPENDIX
U.S. Court of Appeals, Ninth Circuit, Opinion,
April 16, 2019 .............................................................. 1a
U.S. District Court, Central District of California,
(In Chambers) Opinion & Order re Bench Trial,
December 2, 2016 ..................................................... 16a
U.S. District Court, Central District of California,
(In Chambers) Order re: Motion for Attorney’s
Fees, January 24, 2017 ............................................ 24a
U.S. District Court, Central District of California,
(In Chambers) Order re: Defendant’s Motion for
Summary Judgment, July 27, 2016 ....................... 32a
U.S. Court of Appeals, Ninth Circuit, Order Denying Petition for Rehearing, June 25, 2019............. 42a
U.S. District Court, Central District of California,
Judgment, December 7, 2016.................................. 43a
Internal Revenue Code § 6511, 26 U.S.C. § 6511 ..... 44a
Internal Revenue Code § 7422, 26 U.S.C. § 7422 ..... 46a
Internal Revenue Code § 7502, 26 U.S.C. § 7502 ..... 47a
28 U.S.C. § 1346 ............................................................. 51a
26 C.F.R. § 301.7502-1 [Old Version applicable
during June 2011, 66 Fed. Reg. 2257-01 (Jan.
11, 2001)] ................................................................... 52a
26 C.F.R. § 301.7502-1 [Current Version, 76 Fed.
Reg. 52561-01 (Aug. 23, 2011)] ............................... 64a

App.1a
FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

HOWARD L. BALDWIN; KAREN
BALDWIN,
Plaintiffs-Appellees,
v.

Nos. 17-55115
17-55354
D.C. No.
2:15-cv-06004RGK-AGR

UNITED STATES OF AMERICA,
Defendant-Appellant.

OPINION

Appeals from the United States District Court
for the Central District of California
R. Gary Klausner, District Judge, Presiding
Argued and Submitted January 8, 2019
Pasadena, California
Filed April 16, 2019
Before: Susan P. Graber and Paul J. Watford, Circuit
Judges, and Jack Zouhary, * District Judge.
Opinion by Judge Watford

*

The Honorable Jack Zouhary, United States District Judge for the
Northern District of Ohio, sitting by designation.

App.2a
2

BALDWIN V. UNITED STATES
SUMMARY **

Tax
The panel reversed the district court’s judgment, after a
bench trial, in favor of taxpayers in their tax refund action,
and remanded with instructions to dismiss because taxpayers
had not filed a timely claim for a refund with the Internal
Revenue Service (IRS).
As a prerequisite to bringing their refund action,
taxpayers first had to file a timely amended return, claiming
the refund, with the IRS. In this case, the IRS did not timely
receive such a return. The district court credited the
testimony of two employees of taxpayers to find that, under
the common-law mailbox rule, the amended return had been
timely filed.
The common-law mailbox rule provides that proof of
proper mailing—including by testimonial or circumstantial
evidence—gives rise to a rebuttable presumption that the
document was physically delivered to the addressee in the
time such a mailing would ordinarily take to arrive. In
contrast, Internal Revenue Code § 7502 allows documents to
be deemed timely filed only if they are actually delivered to
the IRS and postmarked on or before the deadline. For
documents sent by registered mail, § 7502 provides a
presumption that the document was delivered even if the IRS
claims not to have received it, so long as the taxpayer
produces the registration as proof. Under Treasury
Regulation § 301.7502-1(e)(2), IRC § 7502 provides the
**

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App.3a
BALDWIN V. UNITED STATES

3

exclusive means to prove delivery, rendering the commonlaw mailbox rule unavailable.
The panel accorded Chevron deference to Treasury
Regulation § 301.7502-1(e)(2) as a permissible construction
of IRC § 7502. Because that regulation applies to this case,
the panel reversed the district court’s judgment and
remanded with instructions to dismiss, and reversed the
award of litigation costs to taxpayers because they were no
longer the prevailing party.

COUNSEL
Nathaniel S. Pollock (argued), Joan I. Oppenheimer, and
Gilbert S. Rothenberg, Attorneys; Richard E. Zuckerman,
Principal Deputy Assistant Attorney General; Tax Division,
United States Department of Justice, Washington, D.C.; for
Defendant-Appellant.
Robert Wayne Keaster (argued), Chamberlin & Keaster
LLP, Encino, California, for Plaintiffs-Appellees.

OPINION
WATFORD, Circuit Judge:
Howard and Karen Baldwin filed this action to obtain a
refund of taxes they paid for the 2005 tax year. After a bench
trial, the district court entered judgment in their favor,
awarding them a refund of roughly $167,000 plus litigation
costs of $25,000. We conclude that the district court lacked
the authority to hear this suit. As a prerequisite to bringing
this action, the Baldwins first had to file a timely claim for a

App.4a
4

BALDWIN V. UNITED STATES

refund with the Internal Revenue Service (IRS). They filed
their claim too late. As a result, we must reverse the district
court’s judgment and remand with instructions to dismiss the
case.
I
Because the merits of the underlying tax dispute are
irrelevant to our disposition, we provide only a brief
summary of the facts. The Baldwins’ 2007 tax return
reported a net operating loss of approximately $2.5 million
from their movie production business. They wanted to carry
that loss back to the 2005 tax year in order to offset their
2005 tax liability. Based on that carryback, the Baldwins
prepared an amended 2005 tax return claiming entitlement
to a refund of approximately $167,000.
To obtain a refund, the Baldwins were required to file
their amended 2005 tax return by October 15, 2011—three
years from the extended due date for their 2007 tax return.
See 26 U.S.C. § 6511(b)(1), (d)(2)(A). The Baldwins assert
that they sent their amended 2005 tax return to the IRS by
U.S. mail in June 2011, well before the October 15th
deadline. But the IRS never received that return, or any other
return postmarked by the October 15, 2011, deadline. The
IRS did eventually receive an amended 2005 return from the
Baldwins in July 2013, but it was postmarked after the
statutory deadline had passed. The IRS accordingly denied
the Baldwins’ refund claim as untimely.
The Baldwins then brought this action against the United
States in the district court. Although the doctrine of
sovereign immunity would ordinarily bar such a suit, the
United States has waived its immunity from suit by allowing
a taxpayer to file a civil action to recover “any internalrevenue tax alleged to have been erroneously or illegally

App.5a
BALDWIN V. UNITED STATES

5

assessed or collected.” 28 U.S.C. § 1346(a)(1). Under the
Internal Revenue Code (IRC), though, no such action may
be maintained in any court “until a claim for refund or credit
has been duly filed” with the IRS, in accordance with IRS
regulations. 26 U.S.C. § 7422(a); see United States v. Dalm,
494 U.S. 596, 609 (1990). To be “duly filed,” a claim for
refund must be filed within the time limit set by law. Yuen
v. United States, 825 F.2d 244, 245 (9th Cir. 1987) (per
curiam). Here, as noted above, the Baldwins had to file their
refund claim (i.e., their amended 2005 tax return) by
October 15, 2011.
At this point, before proceeding further, a detour is
necessary to explain when a document, such as a tax return,
is deemed “filed” with the IRS.
Before 1954, the law treated tax documents as timely
filed only if they were physically delivered to the IRS by the
applicable deadline. Anderson v. United States, 966 F.2d
487, 490 (9th Cir. 1992); see United States v. Lombardo,
241 U.S. 73, 76 (1916). This physical-delivery rule left
taxpayers who mailed their documents vulnerable to the
vagaries of the postal service; documents could be delayed
or not delivered at all through no fault of the taxpayer. To
mitigate the harshness of the physical-delivery rule, some
courts responded by applying the common-law mailbox rule.
See, e.g., Detroit Automotive Products Corp. v.
Commissioner of Internal Revenue, 203 F.2d 785, 785–86
(6th Cir. 1953) (per curiam); Arkansas Motor Coaches, Ltd.
v. Commissioner of Internal Revenue, 198 F.2d 189, 191 (8th
Cir. 1952). Under the common-law mailbox rule, proof of
proper mailing—including by testimonial or circumstantial
evidence—gives rise to a rebuttable presumption that the
document was physically delivered to the addressee in the
time such a mailing would ordinarily take to arrive.

App.6a
6

BALDWIN V. UNITED STATES

Philadelphia Marine Trade Association v. Commissioner of
Internal Revenue, 523 F.3d 140, 147 (3d Cir. 2008);
Anderson, 966 F.2d at 491.
In 1954, Congress addressed some of the problems
caused by the physical-delivery rule by enacting IRC § 7502.
Section 7502(a)(1) carves out an exception to the physicaldelivery rule for tax documents sent and delivered by U.S.
mail. It provides that if a document is received by the IRS
after the applicable deadline, it will nonetheless be deemed
to have been delivered on the date that the document is
postmarked:
If any return, claim, statement, or other
document required to be filed, or any
payment required to be made, within a
prescribed period or on or before a prescribed
date under authority of any provision of the
internal revenue laws is, after such period or
such date, delivered by United States mail to
the agency, officer, or office with which such
return, claim, statement, or other document is
required to be filed, or to which such payment
is required to be made, the date of the United
States postmark stamped on the cover in
which such return, claim, statement, or other
document, or payment, is mailed shall be
deemed to be the date of delivery or the date
of payment, as the case may be.
26 U.S.C. § 7502(a)(1). This exception means that a
document will be deemed timely filed so long as two things
are true: (1) the document is actually delivered to the IRS,
even if after the deadline; and (2) the document is
postmarked on or before the deadline. If the document is

App.7a
BALDWIN V. UNITED STATES

7

never delivered at all—say, because it gets lost in the mail—
the exception by its terms does not apply. Miller v. United
States, 784 F.2d 728, 730 (6th Cir. 1986) (per curiam).
To protect against a failure of delivery, some taxpayers
choose to send documents by registered mail. Section
7502(c)(1) provides an exception to the physical-delivery
rule applicable to documents sent in that manner. It provides
that when a document is sent by registered mail, the
registration will serve as prima facie evidence that the
document was delivered, and the date of registration will be
treated as the postmark date:
For purposes of this section, if any return,
claim, statement, or other document, or
payment, is sent by United States registered
mail—
(A) such registration shall be prima
facie evidence that the return, claim,
statement, or other document was
delivered to the agency, officer, or office
to which addressed; and
(B) the date of registration shall be
deemed the postmark date.
26 U.S.C. § 7502(c)(1). Subsection (B) provides, in effect,
that the same exception to the physical-delivery rule
afforded under § 7502(a)(1) for documents sent by regular
mail extends to documents sent by registered mail, with the
registration serving the same function as the postmark.
Subsection (A), however, goes further. It provides a
presumption that a document sent by registered mail was

App.8a
8

BALDWIN V. UNITED STATES

delivered even if the IRS claims not to have received it, so
long as the taxpayer produces the registration as proof. 1
In the decades following the enactment of IRC § 7502,
the courts of appeals reached conflicting decisions as to what
effect, if any, the statute had on application of the commonlaw mailbox rule. On one side of the split, some courts held
that § 7502 supplies the exclusive exceptions to the physicaldelivery rule, thereby displacing the common-law mailbox
rule altogether. See Miller, 784 F.2d at 730–31; Deutsch v.
Commissioner of Internal Revenue, 599 F.2d 44, 46 (2d Cir.
1979). These courts noted that § 7502 evinces a preference
“for an easily applied, objective standard”—a preference
incompatible with the common-law mailbox rule, which
tolerates testimonial and circumstantial evidence to prove
when a document was mailed (and thus presumptively
delivered). Deutsch, 599 F.2d at 46.
On the other side of the split, some courts reasoned that
because § 7502 was meant to mitigate the harshness of the
physical-delivery rule, it is best read as providing a safe
harbor, not as limiting resort to alternative exceptions to the
physical-delivery rule. See Sorrentino v. IRS, 383 F.3d
1187, 1193 (10th Cir. 2004); Estate of Wood v.
Commissioner of Internal Revenue, 909 F.2d 1155, 1161
(8th Cir. 1990). Courts on this side of the split relied on the
principle that statutes should not be read as displacing the
common law unless Congress clearly so intended, while
noting that Congress did not clearly state in § 7502 that it
1

Although not at issue here, IRC § 7502(c)(2) and (f)(3) authorize
the Treasury Secretary to establish, by regulation, equivalent exceptions
to the physical-delivery rule for documents sent by certified mail,
electronic filing, and private delivery services. 26 U.S.C. § 7502(c)(2),
(f)(3).

App.9a
BALDWIN V. UNITED STATES

9

intended to displace the common-law mailbox rule. See
Estate of Wood, 909 F.2d at 1160. Our circuit adopted this
latter line of reasoning. In Anderson v. United States,
966 F.2d 487 (9th Cir. 1992), we “decline[d] to read
section 7502 as carving out exclusive exceptions to the old
common law physical delivery rule.” Id. at 491.
This circuit split left the law in an undesirable state, as it
allowed similarly situated taxpayers to be treated differently
depending on where they lived. In August 2011, the
Treasury Department sought to resolve the split by
promulgating an amended version of Treasury Regulation
§ 301.7502-1(e). The amended regulation interprets § 7502
as creating the exclusive exceptions to the physical-delivery
rule:
Other than direct proof of actual delivery,
proof of proper use of registered or certified
mail, and proof of proper use of a duly
designated [private delivery service], are the
exclusive means to establish prima facie
evidence of delivery of a document to the
agency, officer, or office with which the
document is required to be filed. No other
evidence of a postmark or of mailing will be
prima facie evidence of delivery or raise a
presumption that the document was
delivered.
26 C.F.R. § 301.7502-1(e)(2)(i) (emphasis added). The
regulation makes clear that, unless a taxpayer has direct
proof that a document was actually delivered to the IRS, IRC
§ 7502 provides the exclusive means to prove delivery. In
other words, recourse to the common-law mailbox rule is no
longer available.

App.10a
10

BALDWIN V. UNITED STATES

With that background in mind, we can now return to the
facts of this case. In the district court, the Baldwins did not
dispute that the amended 2005 tax return they claim to have
mailed in June 2011 was never received by the IRS. The
Baldwins therefore sought to rely on the common-law
mailbox rule to establish that the document was
presumptively delivered to the IRS in June 2011, shortly
after they mailed it. They offered the testimony of two of
their employees, who had been tasked with mailing the
document on the Baldwins’ behalf. The employees
explained that they deposited the amended 2005 return in the
mail at the post office in Hartford, Connecticut, on June 21,
2011. Under the common-law mailbox rule, that testimony,
if credited by the court, would give rise to a rebuttable
presumption that the amended return was delivered to the
IRS well before the October 15, 2011, deadline.
The district court credited the testimony of the Baldwins’
employees and found, on the basis of the common-law
mailbox rule, that the Baldwins’ claim for a refund had been
timely filed. The court rejected the government’s argument
that Treasury Regulation § 301.7502-1(e)(2) barred
application of the common-law mailbox rule. The court
viewed IRC § 7502 as unambiguously supplementing, rather
than supplanting, the common-law mailbox rule, thus
leaving no room for the agency to adopt the construction of
the statute reflected in Treasury Regulation § 301.75021(e)(2). Whether the district court correctly declared that
portion of the Treasury Regulation invalid is the principal
focus of the government’s appeal.
II
In deciding whether Treasury Regulation § 301.75021(e)(2) is valid, we employ the familiar two-step analysis
under Chevron U.S.A. Inc. v. Natural Resources Defense

App.11a
BALDWIN V. UNITED STATES

11

Council, Inc., 467 U.S. 837 (1984). We ask first whether
“Congress has directly spoken to the precise question at
issue.” Id. at 842. If it has, Congress’ resolution of the issue
controls and the agency is not free to adopt an interpretation
at odds with the plain language of the statute. But if the
statute is silent or ambiguous on the question at hand, we
then ask whether the agency’s interpretation is “based on a
permissible construction of the statute.” Id. at 843.
At step one of the analysis, we conclude that IRC § 7502
is silent as to whether the statute displaces the common-law
mailbox rule. In particular, with respect to the question
relevant here, the statute does not address whether a taxpayer
who sends a document by regular mail can rely on the
common-law mailbox rule to establish a presumption of
delivery when the IRS claims not to have received the
document. The statute does afford a presumption of delivery
when a taxpayer sends a document by registered mail,
26 U.S.C. § 7502(c)(1)(A), and it authorizes the creation of
similar rules for certified mail, electronic filing, and private
delivery services. § 7502(c)(2), (f)(3). But as to documents
sent by regular mail, the statute is conspicuously silent. 2
At step two of the Chevron analysis, the remaining
question is whether Treasury Regulation § 301.7502-1(e)(2)
is based on a permissible construction of the statute. We
conclude that it is. As reflected by the circuit split that
developed on this issue, Congress’ enactment of IRC § 7502
could reasonably be construed in one of two ways: as
intended merely to supplement the common-law mailbox
2

The statute is also silent as to whether any evidence other than the
objective evidence described in the statute—the registration for
registered mail, and equivalents for certified mail, electronic filing, and
private delivery service—may raise a presumption of delivery.

App.12a
12

BALDWIN V. UNITED STATES

rule, or to supplant it altogether. The Treasury Department
chose the latter construction by interpreting IRC § 7502 to
provide the sole means by which taxpayers may prove timely
delivery in the absence of direct proof of actual delivery.
That construction of the statute is reasonable in light of the
principle that “where Congress explicitly enumerates certain
exceptions to a general prohibition, additional exceptions are
not to be implied, in the absence of evidence of a contrary
legislative intent.” Hillman v. Maretta, 569 U.S. 483, 496
(2013) (alteration omitted); see also Syed v. M-I, LLC,
853 F.3d 492, 501 (9th Cir. 2017). Given that the purpose
of enacting IRC § 7502 was to provide exceptions to the
physical-delivery rule, it is reasonable to conclude that
“Congress considered the issue of exceptions and, in the end,
limited the statute to the ones set forth.” United States v.
Johnson, 529 U.S. 53, 58 (2000).
In arguing that the Treasury Department unreasonably
construed IRC § 7502 as having displaced the common-law
mailbox rule, the Baldwins invoke a different principle of
statutory interpretation, which provides that “the common
law . . . ought not to be deemed repealed, unless the language
of a statute be clear and explicit for this purpose.” Norfolk
Redevelopment and Housing Authority v. Chesapeake &
Potomac Telephone Co., 464 U.S. 30, 35 (1983) (alteration
and internal quotation marks omitted). But the mere fact that
dueling principles of statutory interpretation support
opposing constructions of a statute does not prove, without
more, that the agency’s interpretation is unreasonable. The
question remains whether the agency has adopted a
permissible construction of the statute, taking into account
all of the interpretive tools available. As is true in this case,
an agency’s construction can be reasonable even if another,
equally permissible construction of the statute could also be
upheld.

App.13a
BALDWIN V. UNITED STATES

13

Finally, our prior interpretation of IRC § 7502 in
Anderson does not bar our decision to defer to the agency’s
conflicting, but nonetheless reasonable, construction of the
statute. As noted above, before the relevant amendment of
Treasury Regulation § 301.7502-1(e), we “decline[d] to read
section 7502 as carving out exclusive exceptions to the old
common law physical delivery rule.” Anderson, 966 F.2d at
491. But “[a] court’s prior judicial construction of a statute
trumps an agency construction otherwise entitled to Chevron
deference only if the prior court decision holds that its
construction follows from the unambiguous terms of the
statute and thus leaves no room for agency discretion.”
National Cable & Telecommunications Association v. Brand
X Internet Services, 545 U.S. 967, 982 (2005). We did not
hold in Anderson that our interpretation of the statute was
the only reasonable interpretation. In fact, our analysis made
clear that our decision filled a statutory gap. Under Brand X,
the Treasury Department was free to fill that gap by adopting
its own reasonable interpretation of the governing statute.
III
The Baldwins contend that even if Treasury Regulation
§ 301.7502-1(e)(2) is valid, it does not apply in this case.
They offer two arguments to that end, both of which we
reject.
First, the Baldwins argue that IRC § 7502 and Treasury
Regulation § 301.7502-1(e)(2) apply only when a tax
document was sent before, but received after, the applicable
due date. In their view, these provisions do not apply when,
as here, a tax document was never received at all. The
Baldwins thus contend that even if Treasury Regulation
§ 301.7502-1(e)(2) prohibits recourse to the common-law
mailbox rule, that prohibition does not apply to them because
they used the mailbox rule not to prove that a late-received

App.14a
14

BALDWIN V. UNITED STATES

document was mailed in time, but instead to prove that a
document that the IRS apparently never received was in fact
delivered.
The Baldwins are mistaken. To be sure, § 7502
addresses situations in which tax documents are mailed
before, but not received until after, the due date. Subsection
(a)(1) provides that in such instances the document will be
deemed timely filed so long as it was postmarked before the
due date. 26 U.S.C. § 7502(a)(1). But § 7502 also addresses
situations in which the IRS claims not to have received a tax
document at all. Subsection (c)(1)(A) provides that, for
documents sent by registered mail, the registration will be
treated as “prima facie evidence that the [document] was
delivered.” § 7502(c)(1)(A). That provision can apply only
when the IRS claims not to have received a document. The
Baldwins are therefore wrong in contending that IRC § 7502
and Treasury Regulation § 301.7502-1(e)(2)—which
interprets the statute to prohibit recourse to the common-law
mailbox rule—do not apply to situations like theirs in which
a document was never delivered to the IRS.
Second, the Baldwins argue that Treasury Regulation
§ 301.7502-1(e)(2) does not apply in this case because it was
promulgated in August 2011, two months after they
allegedly mailed their amended 2005 return in June 2011.
This argument also fails. See Maine Medical Center v.
United States, 675 F.3d 110, 118 n.14 (1st Cir. 2012)
(rejecting identical argument). The regulation expressly
provides that “Section 301.7502-1(e)(2) will apply to all
documents mailed after September 21, 2004,” the date that
the current text of the regulation was proposed. 26 C.F.R.
§ 301.7502-1(g)(4); Timely Mailed Treated as Timely Filed,
69 Fed. Reg. 56,377-01 (Sept. 21, 2004). That retroactivity
provision complies with IRC § 7805(b), which authorizes

App.15a
BALDWIN V. UNITED STATES

15

the Treasury Secretary to make regulations retroactively
applicable as far back as the date of their proposal. 26 U.S.C.
§ 7805(b)(1)(B); see Bowen v. Georgetown University
Hospital, 488 U.S. 204, 208 (1988). Our prior decision in
Anderson is irrelevant to the issue of retroactivity, as
§ 7805(b) does not contain an exception barring the
retroactive application of a valid regulation in judicial
circuits where the regulation contravenes a prior circuit
decision.
*

*

*

Because Treasury Regulation § 301.7502-1(e)(2) is valid
and applicable in this case, and because timely filing is a
mandatory requirement for maintaining tax refund suits, see
26 U.S.C. § 7422(a), we reverse the judgment below and
remand with instructions to dismiss this case. As the
Baldwins are no longer prevailing parties, we also reverse
the award of litigation costs.
REVERSED and REMANDED.

App.16a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No. 2:15-CV-06004-RGK-AGR
Date December 2, 2016
Title Howard L. Baldwin and Karen Baldwin
v. United States
Present:
The Honorable R. GARY KLAUSNER, UNITED
STATES DISTRICT JUDGE
Sharon L. Williams , Deputy Clerk
Not Reported, Court Reporter / Recorder
N/A, Tape No.
Attorneys Present for Plaintiffs: Not Present
Attorneys Present for Defendants: Not Present
Proceedings: (IN CHAMBERS) Opinion & Order re Bench Trial
I. INTRODUCTION
On August 7, 2015, Howard and Karen Baldwin
(“Plaintiffs”) filed an action against the United
States of America (“the Government” or “Defend-

App.17a
ant”). The Complaint seeks the refund of income taxes wrongfully denied to Plaintiffs by the Internal
Revenue Service (“IRS”).
This case was tried to the Court without a jury
on November 11, 2016. Oral testimony and documentary exhibits were introduced, and after arguments the Court took the case under submission. For
the following reasons the Court enters judgment
in favor of Plaintiffs.
II. JUDICIAL STANDARD
“In an action tried on the facts without a jury or
with an advisory jury, the court must find the facts
specially and state its conclusions of law separately.”
Fed. R. Civ. P. 52.
“In tax-refund suits generally, the taxpayer
bears the burden of establishing the right to a refund.” Heger v. United States, 103 Fed. Cl. 261, 265
(2012) (internal quotation marks omitted). “Th[e]
burden is a burden of persuasion; it requires [Plaintiff] to show the merits of his claim by at least a preponderance of the evidence.” Rockwell v. C. I. R., 512
F.2d 882, 885 (9th Cir. 1975).
III. FINDINGS OF FACT
The Court finds the following facts were proven
at trial by a preponderance of the evidence:
On October 24, 2006, the IRS received Plaintiffs’
individual income tax return form and payment of
the full $170,951 in liability for the tax year 2005
(“2005 Return”). For tax year 2007, Plaintiffs requested and were granted an extension of time to file
their return until October 15, 2008. On

App.18a
November 1, 2010, the IRS received Plaintiffs’ individual income tax return form for tax year 2007
(“2007 Return”), indicating a net operating loss for
that year. Plaintiffs then prepared an amended individual income tax return (“Amended Return”) on a
Form 1040X, claiming the 2007 net operating loss
(“NOL”) as a carry back deduction for the tax year
2005 and a refund in the amount of $167,663.
Plaintiffs had sufficient losses from Baldwin Entertainment Group LTD included on their 2007 Return to entitle them to a refund in the amount of
$167,663 when carried back to tax year 2005. Plaintiffs also had sufficient tax basis in Baldwin Entertainment Group LTD to deduct losses on their 2007
Return that would allow for a refund in the amount
of $167,663 when carried back to tax year 2005.
On June 21, 2011, Plaintiffs’ assistant, Ryan
Wuerfel, mailed the Amended Return to the IRS via
regular mail at the Hartford post office. The Amended Return was mailed in a green and white envelope,
which was addressed to the IRS service center in
Andover, MA. The Amended Return would have arrived at the IRS service center in the ordinary course
well before the October 15, 2011 deadline. While the
IRS Form 1040X instructions indicated that the
Amended Return should have been sent to the service center in Kansas City, MO, the Andover service
center would have forwarded the Amended Return to
Kansas City in the ordinary course of operations.
IRS records do not reflect that the Amended Return
was ever received by either service center, but the
IRS offers no affirmative evidence calling into question that the Amended Return was mailed by Plaintiffs on June 21, 2011. Plaintiffs’ evidence that the

App.19a
Amended Return was indeed mailed on that date
was credible.
When Plaintiffs later inquired about the status
of their refund claim, the IRS looked into the matter.
The IRS never asked Plaintiffs for documentation to
support their claim for refund during the administrative consideration of their claim, and at no time
during the process did the IRS challenge the validity
of the claim for refund. The IRS ultimately denied
Plaintiffs’ refund claim on August 12, 2013, however,
because they contended that the claim had not been
timely filed.
IV. CONCLUSIONS OF LAW
Based on the findings of fact above, the Court
makes the following conclusions of law:
A. Subject Matter Jurisdiction
This Court has subject matter jurisdiction over
this action pursuant to 28 U.S.C. § 1346(a)(1) because, as discussed below, Plaintiffs (a) fully paid the
tax before filing suit for refund, (b) timely filed an
administrative claim for refund with the IRS, and (c)
filed this suit for refund less than two years from the
date the IRS denied their administrative claim.
B. The Mailbox Rule Applies and Plaintiffs
Are Entitled To a Presumption of Delivery
The Ninth Circuit has held that Congress’ enactment of a statutory mailbox rule in the tax context at 26 U.S.C. § 7502(c) “did not displace the
common law presumption of delivery” associated

App.20a
with the common law mailbox rule. Anderson v.
United States, 966 F.2d 487, 491 (9th Cir. 1992).
When Congress enacted § 7502(c), it intended to alleviate the hardship of postal service malfunctions
by giving taxpayers a means to conclusively establish
the IRS’ receipt of a return with proof of certified or
registered mail. While the statute made the proof of
certified or registered mail sufficient evidence to
conclusively establish receipt of the return, there is
no indication that it intended to foreclose other evidentiary means that might assist in establishing a
presumption of delivery. Therefore, the Court concludes that the common law mailbox rule is still operative in this context.
The common law mailbox rule states that “proper and timely mailing of a document raises a rebuttable presumption that it is received by the addressee.” Id. citing Rosenthal v. Walker, 111 U.S. 185,
193–94 (1884).
The Ninth Circuit in Anderson held that an individual was entitled to a presumption of delivery
when “she actually saw the postal clerk stamp her
document.” The Court finds that Plaintiffs are similarly entitled to a presumption of delivery because
Plaintiffs’ assistant Ryan Wuerfel mailed the
Amended Return at the Hartford post office on June
21, 2011. The Government failed to rebut this presumption, and the Court finds Plaintiffs’ evidence
that the Amended Return was mailed to be credible.
See Anderson, 966 F.2d at 491 (“The district court’s
conclusion that the government failed to rebut the
presumption of delivery was, in essence, a credibility
determination.”).

App.21a
C. That The Amended Return Was Initially
Mailed To The Andover, MA Service Center
Is Not Fatal To Plaintiffs’ Claims
The Internal Revenue Code “provides that no
suit for a refund may be maintained in any court until a claim for a refund has been filed with the Secretary of the Treasury in accordance with Treasury
Regulations. Quarty v. United States, 170 F.3d 961,
972 (9th Cir. 1999). Treasury Regulation §
301.6402-2(a)(2) currently provides that a claim for
refund must be made in accordance with IRS Form
1040X’s instructions. Between 2005 and 2010, however, Form 1040X’s instructions changed regarding
where an amended return should be mailed. The
2010 version of the 1040X—in effect at the time
Plaintiffs mailed their amended return—instructed
Plaintiffs to “mail Form 1040X and attachments to”
the IRS service center in Kansas City, MO. As the
Court noted above, however, Plaintiffs mailed their
Form 1040X to the service center in Andover, MA,
where they had filed their original 2005 and 2007
returns.
The Government contends that this technical defect is fatal to their claim for refund. The Court concludes, however, that Form 1040X’s instructions regarding where to mail refund requests were not
written as strict requirements. The 1040X instructions do not use “must” or “shall” when indicating
the service center where the refund claim should be
mailed. Rather, the instructions simply indicate the
service center where such claims will be processed.
The fact that the IRS routinely forwards incorrectly
addressed refund claims as a matter of course also

App.22a
suggests that the IRS does not consider an address
problem to be fatal to a refund claim.
Further, Treasury regulations in effect at the
time Plaintiffs filed their Amended Return conflicted
with the operative 1040X instructions regarding
where to send refund claims. At the time, Treasury
Regulation § 301.6402-2(a)(2) indicated that “a claim
for credit or refund must be filed with the service
center serving the internal revenue district in which
the tax was paid.” (Background to T.D. 9727, 26
C.F.R. Part 301, Pl.’s Request for Judicial Notice, Ex.
A.) In Plaintiffs’ case, that would have been the service center in Andover, MA.
The Court concludes that by mailing their
Amended Return to the service center in Andover,
MA, where it would have been forwarded as a matter
of course to the service center in Kansas City, MO,
Plaintiffs properly made a claim for refund in accordance with the operative Treasury regulations
and Form 1040X’s instructions. The Court holds that
the 2010 Form 1040X instructions, coupled with the
Treasury regulations then in effect, simply required
that a taxpayer mail his amended return in such a
way that it would, as a matter of course, be delivered
to the proper service center to handle the claim within the statutory period.
The Court therefore finds that Plaintiffs have
met the requirements of 28 U.S.C. § 1346, and have
further demonstrated that they are entitled to a tax
refund of $167,663.
V. EVIDENTIARY OBJECTIONS
To the extent the parties object to any evidence
upon which the Court relied, the Court overrules
those objections.

App.23a
VI. CONCLUSION
In light of the foregoing, the Court finds that
Howard and Karen Baldwin are the prevailing
parties in this action.
The Court ORDERS Plaintiffs to submit to the
Court a proposed judgment consistent with this Order within 2 days of the filing of this Order.
IT IS SO ORDERED.

App.24a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No. 2:15-CV-6004-RGK-AGR
Date January 24, 2017
Title Howard L. Baldwin et al v. United States
Present:
The Honorable R. GARY KLAUSNER, UNITED
STATES DISTRICT JUDGE
Charles A. Rojas, Deputy Clerk
Not Reported, Court Reporter / Recorder
N/A, Tape No.
Attorneys Present for Plaintiffs: Not Present
Attorneys Present for Defendants: Not Present
Proceedings: (IN CHAMBERS) Order re: Motion
for Attorney’s Fees (DE 79)
I. INTRODUCTION
On December 2, 2016, following a bench trial,
the Court issued its Opinion declaring Howard and
Karen Baldwin (“Plaintiffs”) to be the prevailing parties. The Court entered judgment in the Baldwin’s

App.25a
favor, and against United States of America (“Defendant”), in the amount of $167,663.00.
Present before the Court is Plaintiffs’ Motion for
Attorney’s Fees and Costs. For the following reasons,
the Court GRANTS Plaintiffs’ Motion.
II. STATEMENT OF FACTS
The Court found the following facts were proven
at trial by a preponderance of the evidence:
On October 24, 2006, the IRS received Plaintiffs’
individual income tax return form, and payment of
the full $170,951 in tax liability for 2005 (“2005 Return”). For tax year 2007, Plaintiffs requested and
were granted an extension of time to file their return. On November 1, 2010, the IRS received Plaintiffs’ income tax return form for 2007 (“2007 Return”), showing a net operating loss.
Plaintiffs later prepared an amended individual
income tax return (“Amended Return”) on a Form
1040X, claiming the 2007 net operating loss (“NOL”)
as a carry back deduction for the tax year 2005, and
calculated that they are owed a refund in the
amount of $167,663.
Plaintiffs had sufficient losses from Baldwin Entertainment Group LTD included on their 2007 Return to entitle them to a refund in the amount of
$167,663 when carried back to tax year 2005. Plaintiffs also had sufficient tax basis in Baldwin Entertainment Group LTD to deduct losses on their 2007
Return that would allow for a refund in that amount.
On June 21, 2011, Plaintiffs’ assistant, Ryan
Wuerfel, mailed the Amended Return to the IRS via
regular mail at the Hartford post office. The Amended Return was mailed in a green and white envelope,

App.26a
which was addressed to the IRS service center in
Andover, MA. The Amended Return would have arrived at the IRS service center in the ordinary course
well before the October 15, 2011 deadline. While the
IRS Form 1040X instructions indicated that the
Amended Return should have been sent to the service center in Kansas City, MO, the Andover service
center would have forwarded the Amended Return to
Kansas City in the ordinary course of operations.
IRS records do not reflect that the Amended Return
was ever received by either service center, but the
IRS offered no affirmative evidence calling into question that Plaintiffs mailed the Amended Return on
June 21, 2011. Plaintiffs’ evidence that the Amended
Return was indeed mailed on that date was credible.
When Plaintiffs later inquired about the status
of their refund claim, the IRS looked into the matter.
The IRS never asked Plaintiffs for documentation to
support their claim for refund during the administrative consideration of their claim, and at no time
during the process did the IRS challenge the validity
of the claim for refund. The IRS ultimately denied
Plaintiffs’ refund claim on August 12, 2013, however,
because they contended that the claim had not been
timely filed.
The Baldwins ultimately prevailed at trial, and
were awarded a $167,663 refund.
III. JUDICIAL STANDARD
Under 28 U.S.C. § 7430, a plaintiff may seek attorney’s fees in a tax refund suit against the United
States when: (1) plaintiff was the substantially prevailing party, (2) plaintiff exhausted his administrative remedies prior to bringing the lawsuit, (3) plain-

App.27a
tiff did not unreasonably protract the litigation, (4)
plaintiff’s net worth did not exceed two million dollars at the time the action was filed, and (5) the
United States cannot prove that its position was
substantially justified. The United States bears the
burden of proving that its position was substantially
justified. 28 U.S.C. § 7430(c)(4)(B)(i).
IV. DISCUSSION
A. Elements 1–4: Prevailing Party, Exhaustion, Protraction, and Net Worth
The Court finds (and Government does not challenge) that Plaintiffs meet the first four elements of
§ 7430’s test. Plaintiffs prevailed at trial, exhausted
their administrative remedies with the IRS before
filing suit, litigated the case with reasonable efficiency, and did not exceed the net-worth cap.
B. Element 5: Substantial Justification
The Government argues, however, that its litigation position was substantially justified, and that
therefore Plaintiffs are not entitled to an award of
attorney’s fees and costs.
The Government bears the burden of proving
that its position was substantially justified, and the
test for determining substantial justification is
“whether a reasonable person would think the government’s position was reasonable.” Lewis v. United
States, 144 F.3d 1220, 1222 (9th Cir. 1998).
The Government argues that it was reasonable
for it to have taken the position that 26 U.S.C. §
7502, and the corresponding section of the Internal

App.28a
Revenue Code, preclude a taxpayer from relying on
the common law mailbox rule to prove the IRS’s receipt of a tax return. The Government cites regulatory language and several cases from different circuits
to show that this was a reasonable position. See, e.g.,
Maine Medical Center v. United States, 675 F.3d 110,
118 (1st Cir. 2012).
As the Court noted in its denial of summary
judgment, however, the Ninth Circuit has held that
Congress did not intend to displace the common law
mailbox rule when it enacted § 7502. See Anderson v.
United States, 966 F.2d 487, 491 (9th Cir. 1992).
While the Government notes correctly that there has
been an intervening change in IRS regulations since
Anderson, agencies like the IRS are powerless to
modify Congressional intent. At least under the
Ninth Circuit’s reasoning, no amount of new IRS
rulemaking could transform § 7502 into a statute
that displaces the common law mailbox rule.
Since reasonable judges outside the Ninth Circuit disagree on § 7502’s effect on the common law
mailbox rule, however, and because of the intervening regulatory changes, the Court concludes that the
Government’s position was reasonable, at least at
the outset of this litigation. Once the Court denied
the Government’s Motion for Summary Judgment on
this issue, however, and clarified the state of the law
in the Ninth Circuit, this position became unreasonable.
The Government nevertheless moved forward to
trial with a new legal theory: that the Baldwins had
failed to substantiate their deduction, a position that
the IRS had never taken before (not even during the
prior administrative proceedings). The Government
further decided to contest whether Plaintiffs had ev-

App.29a
er mailed their refund, despite presenting no affirmative evidence reasonably disputing this fact. The
Government further argued over technicalities regarding the proper place to mail a return, despite
the IRS’s own regulations at the time offering conflicting instructions on this issue, and the fact that
the IRS regularly forwards misdirected returns to
the proper processing center.
The Court finds that the Government’s position
in the present litigation was substantially justified
up until the point that the Court ruled on summary
judgment against the Government’s original theory
of the case. After that point, the Government’s litigation position became unreasonable. Therefore, following the unsuccessful settlement conference held
just after the Court denied summary judgment, the
Government’s position moving forward was no longer
substantially justified.
The Court thus concludes that Plaintiffs are entitled to recover their attorney’s fees and costs incurred after the settlement conference held on September 13, 2016.
C. Attorney’s Fees Rate
The statutory rate for attorneys’ fees incurred in
2015 and 2016 was $200 per hour. See Rev. Proc.
2015-53, 2015-44, I.R.B. 615; Rev Proc. 2014-61,
2014-47 I.R.B. 860. Plaintiffs argue, however, that
they are entitled to a special adjustment, which
would increase the statutory fees to $350 per hour.
Plaintiffs argue that a special adjustment is
warranted whenever an attorney has distinctive
knowledge or specialized skill necessary to the litigation, citing Pierce v. Underwood, 487 U.S. 552

App.30a
(1988). Plaintiffs argue that because their attorneys
were tax specialists, and this special skill was certainly needed in the present case, they are entitled
to the higher attorney’s fee rate.
Plaintiffs are mistaken, however, about Pierce’s
applicability. Pierce dealt with attorney’s fees under
the Equal Access to Justice Act, not fees in tax cases
under § 7430. It is a near certainty that an attorney
trying a tax case will have expertise in tax law. This
fact cannot, therefore, serve as a “special factor”
warranting a fee adjustment. Holding otherwise
would render the statutory cap meaningless in tax
cases, and take away the “specialness” of the “special
factor” adjustment.
Accordingly, the Court finds that the statutory
rate of $200 per hour is appropriate.
D. Attorney’s Fees and Cost Calculations
The Court has reviewed Plaintiffs’ attorneys’
billing statements, and determined the amount of
hours spent and costs incurred after the September
13, 2016 settlement conference. The Court’s totals
are summarized below:
Steven J. Lynch, Esq.:
Fees: 64 hours @ $200/hour $ 12,800.00
Costs: $ 2,590.93
Chamberlin & Keaster LLP:
Fees: 49 hours @ $200/hour $ 9,800.00
Costs: + $ 324.07
=========
TOTAL: $ 25,515.00

App.31a
V. CONCLUSION
For the foregoing reasons, the Court GRANTS
Plaintiffs’ Motion for Attorney’s Fees and Costs. The
Court thereby ORDERS Defendant United States of
America to pay for Plaintiffs’ reasonable attorney’s
fees and costs in the amount of $25,515.00.
IT IS SO ORDERED.

App.32a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No. 2:15-CV-06004-RGK (AGR)
Date July 27, 2016
Title Howard L. Baldwin et al v. United States
Present:
The Honorable R. GARY KLAUSNER, UNITED
STATES DISTRICT JUDGE
Sharon L. Williams (not present), Deputy Clerk
Not Reported, Court Reporter / Recorder
N/A, Tape No.
Attorneys Present for Plaintiffs: Not Present
Attorneys Present for Defendants: Not Present
Proceedings: (IN CHAMBERS) Order re: Defendant’s Motion for Summary Judgment
I. INTRODUCTION
On August 7, 2015, Howard and Karen Baldwin
(“Plaintiffs”) filed an action against the United
States of America (“Defendant”). The Complaint

App.33a
seeks the refund of income taxes wrongfully denied
to Plaintiffs by the Internal Revenue Service (“IRS”).
On June 16, 2016, Defendant filed this Motion
for Summary Judgment arguing that because Plaintiffs cannot meet their burden to show a waiver of
sovereign immunity, the Court must dismiss the
case for lack of personal jurisdiction.
For the following reasons the Court DENIES
Defendant’s Motion for Summary Judgment.
II. STATEMENT OF FACTS
The following facts are undisputed:
On October 24, 2006, the IRS received Plaintiffs’
individual income tax return form and payment of
the full $170,951 in liability for the tax year 2005
(“2005 Return”). (Greene Decl. Exs. D and F, ECF
No. 27-3.) For tax year 2007, Plaintiffs requested
and were granted an extension of time to file their
return until October 15, 2008. Id. On November 1,
2010, the IRS received Plaintiffs’ individual income
tax return form for tax year 2007 (“2007 Return”),
indicating a net operating loss for that year. Id.
Plaintiffs then prepared an amended individual income tax return (“Amended Return”), claiming the
2007 net operating loss (“NOL”) as a carry back deduction for the tax year 2005 and a refund in the
amount of $170,951. Id. On June 21, 2011, Plaintiffs’
assistant sent the Amended Return to the IRS via
regular mail. Id. The IRS records do not reflect that
the Amended Return was ever received, nor that any
return claiming a refund for tax year 2005 was
postmarked, delivered, or filed by October 15, 2011.
Id. The IRS denied Plaintiffs’ refund claim on Au-

App.34a
gust 12, 2013, and Plaintiffs brought this suit
against the IRS on August 7, 2015. Id.
III. JUDICIAL STANDARD
Pursuant to Federal Rule of Civil Procedure
56(a), a court may grant summary judgment only
where “there is no genuine issue as to any material
fact and … the movant is entitled to judgment as a
matter of law.” Fed. R. Civ. P. 56(a). Upon such a
showing, the court may grant summary judgment on
all or part of the claim. Id.
To prevail on a summary judgment motion, the
moving party must show that there are no triable
issues of material fact as to matters upon which it
has the burden of proof at trial. Celotex Corp. v.
Catrett, 477 U.S. 317, 325 (1986). On issues where
the moving party does not have the burden of proof
at trial, the moving party need only show that there
is an absence of evidence to support the non-moving
party’s case. See id.
To defeat a summary judgment motion, the nonmoving party may not merely rely on its pleadings or
on conclusory statements. Id. at 324. Nor may the
non-moving party merely attack or discredit the
moving party’s evidence. See Nat’l Union Fire Ins.
Co. v. Argonaut Ins. Co., 701 F.2d 95, 97 (9th Cir.
1983). The non-moving party must affirmatively present specific admissible evidence sufficient to create
a genuine issue of material fact for trial. Celotex 477
U.S. at 324.

App.35a
VI. DISCUSSION
At the nexus of Defendant’s motion is the contention that because Plaintiffs failed to prove a
waiver of sovereign immunity, the Court lacks personal jurisdiction.
As a sovereign, the United States may not be
sued without its consent, and that consent defines
the court’s jurisdiction. United States v. Dalm, 494
U.S. 596, 608 (1990). A waiver of sovereign immunity must be “unequivocally expressed” through a
Congressional statute, United States v. Testan, 424
U.S. 392, 399 (1976), and that statute must be strictly construed against the surrender of sovereign immunity. Safeway Portland Emp. Federal Credit Union v. Federal Deposit Ins. Corp., 506 F.2d 1213,
1216 (9th Cir. 1974).
Congress has granted this Court jurisdiction
over claims against the United States for the recovery of any internal-revenue tax alleged to have been
erroneously or illegally assessed or collected. 28
U.S.C. § 1346(a)(1). “Despite its spacious terms, §
1436(a)(1) must be read in conformity with other
statutory provisions which qualify a taxpayer’s right
to bring a refund suit upon compliance with certain
conditions.” Dalm, 494 U.S. at 601. The Internal
Revenue Code (“IRC”) lays out three requirements,
all of which must be met, for a proper waiver of sovereign immunity with regard to suits for the recovery of refunds. First, the IRC bars a suit for the recovery of a refund until the taxpayer has fully paid
his tax for the year in question. Flora v. United
States, 362 U.S. 145, 176 (1960). Second, no suit for
recovery of a refund may be initiated unless a claim
for a refund was timely filed. 26 U.S.C. § 7422(a).

App.36a
Third, a suit proceeding under § 7422 may not be
filed within 6 months from the date of filing the refund claim, or more than two years from the date the
IRS denied the claim. 26 U.S.C. § 6532(a)(1).
Here, Plaintiffs fully paid the tax liability of
$170,951 for tax year 2005. (Greene Decl. Exs. D and
F, ECF 27-3.) Furthermore, the IRS denied Plaintiffs’ refund claim on August 12, 2013, and Plaintiffs
filed their refund suit less than two years later, on
August 7, 2015. (Id.) In light of these facts, the Court
finds that Plaintiffs have fulfilled the first and third
requirements for a waiver of sovereign immunity.
With respect to the second requirement, however, Defendant contends that Plaintiffs did not timely
file their claim for a refund and thus failed to prove
a waiver of sovereign immunity. The Court disagrees
and finds that Plaintiffs provide sufficient evidence
to show a triable issue of material fact with respect
to the timely filing of their refund claim.
Timely Filing of Refund Claims
To claim a refund arising from an overpayment
attributable to a net operating loss (“NOL”), a taxpayer must file a claim for a refund within “3 years
after the time prescribed by law for the filing of the
return (including extensions thereof) for the taxable
year of the NOL.” 26 U.S.C. § 6511(d)(2)(A).
Here, Plaintiffs contend they mailed the Amended Return on June 21, 2011, thereby timely filing
their claim for the 2007 NOL as a carryback deduction and a refund in the amount of $170,951.
(Greene Decl. Exs. D and F, ECF No. 27-3.) In support, Plaintiffs testify that they mailed the Amended
Return on June 21, 2011, and provide a declaration

App.37a
from a former assistant who claims to have applied
the appropriate postage and deposited the Amended
Return at the post office on the date in question.
(Lynch Decl. Ex. B, ECF No. 30.) Defendant responds that Plaintiffs’ evidence is inadmissible. Defendant argues therefore, that because the IRS never
received the Amended Return, Plaintiffs cannot raise
a triable issue as to its filing.
Accordingly, the Court addresses the admissibility of Plaintiffs’ evidence, and the sufficiency of that
evidence.
1. Admissibility of Extrinsic Evidence
In the event the IRS does not receive a return,
the common law provides that proof of timely mailing of the return raises a rebuttable presumption
that it was timely received. Anderson v. United
States, 966 F.2d 487, 491 (9th Cir. 1992) (citing
Rosenthal v. Walker, 111 U.S. 185, 193-94 (1884));
Schikore v. BankAmerica Supplemental Ret. Plan,
269 F.3d 956, 961 (9th Cir. 2001). Like any rebuttable presumption, it is chiefly a “tool for determining,
in the face of inconclusive evidence, whether or not
receipt has actually been accomplished.” Id. Under
IRC § 7502, however, a taxpayer may conclusively
establish receipt of a return by presenting proof of
registered or certified mail as evidence. 26 U.S.C. §
7502(c). In the Ninth Circuit, when no such evidence
exists, a taxpayer may introduce extrinsic and circumstantial evidence of mailing for the purposes of
establishing a presumption of receipt. Anderson, 966
F.2d at 491.
In 2011, the Treasury Department amended its
regulations related to § 7502(c), making registered or

App.38a
certified mail receipts the only evidence that can
conclusively or presumptively establish receipt of a
return not actually received. 26 CFR 301.7502-1(e).
This regulation is in direct conflict with Ninth Circuit precedent, which allows credible extrinsic evidence of mailing to create a presumption of receipt
under § 7502(c). Defendant contends that under the
Chevron deference test, the Court must defer to the
agency’s regulation.
In Chevron, U.S.A., Inc., v. NRDC, Inc., 467 U.S.
837, 842-43 (1984), the Supreme Court laid out a
two-step analysis to determine whether a court
should defer to an agency’s statutory interpretation.
First, the court must determine if Congress has
clearly and unambiguously expressed its intent
through the statute. Id. If the statute is unambiguous, the court need not give any deference to the
agency regulation. Id. If the statute is ambiguous,
however, the court must defer to all reasonable
agency interpretations of that statute. Id. at 843.
Furthermore, any prior judicial constructions of that
statute are superseded by reasonable agency interpretations of ambiguous statutes. Nat’l Cable & Telecomm. Ass’n. v. Brand X Internet Servs., 545 U.S.
967, 982 (2005).
A statute is ambiguous if Congress either explicitly or implicitly left room for agency interpretation.
Chevron 467 U.S. at 843-44. An example of an explicit authorization is found in § 7502 itself. The statute
explicitly authorizes the Treasury Secretary to create regulations to determine whether postmarks
made by delivery services other than the United
States Postal Service qualify as postmarks for the
purposes of the statute. 26 U.S.C. § 7502(b). Implicit
authorization is present where Congress remains si-

App.39a
lent as to the definition of a statutory term. Chevron
467 U.S. at 844. For example, in Chevron, the EPA
interpreted the definition of the statutory term “stationary source,” 467 U.S. at 839; and, in Brand X,
the Federal Communications Commission interpreted the statutory term “telecommunications service.”
545 U.S. at 974. In both instances, however, the
statutory terms were considered ambiguous, thus
leaving room for varying interpretations of their
meaning or application.
Here, the Court finds no statutory ambiguity.
Congress did not explicitly authorize the Treasury to
interpret what constitutes evidence. As evidenced by
other sections of the statute, it is clear that Congress
knows how to explicitly authorize agency interpretations when it intends to do so. See generally 26
U.S.C. § 7502(b) (statute explicitly authorizes the
Treasury Secretary to create regulations to determine whether postmarks made by delivery services
other than the United States Postal Service qualify
as postmarks for the purpose of § 7502). Accordingly,
the Court finds its silence instructive. Nor has Congress implicitly left room for agency interpretation,
as there is no ambiguous statutory term that has
been left undefined.
Based on the foregoing, the Court finds that the
Treasury Department’s 2011 amendment materially
alters an otherwise clear statute. When Congress
enacted § 7502(c), it intended to alleviate the hardship of postal service malfunctions by giving taxpayers a means to conclusively establish the IRS’ receipt
of a return with proof of certified or registered mail.
While the statute made the proof of certified or registered mail sufficient evidence to conclusively establish a receipt of the return, there is no indication

App.40a
that it intended to foreclose other evidentiary means
that might assist in establishing a presumption of
delivery.
The Court finds that § 7502 is not ambiguous,
and therefore the Court need not proceed to the second step of the Chevron analysis. Accordingly, no
deference shall be granted to the Treasury Department’s interpretation of the statute. The Court next
considers Plaintiffs’ testimony and the declaration of
their former assistant in determining the sufficiency
of Plaintiffs’ evidence.
2. The Sufficiency of Plaintiffs’ Evidence
If a taxpayer furnishes credible evidence of the
date on which her return was postmarked and
mailed to the IRS, that date controls. Lewis v. United States, 144 F.3d 1220, 1223 (9th Cir. 1998). In the
Ninth Circuit’s seminal case on the admissibility of
extrinsic evidence for purposes of § 7502, a taxpayer’s testimony, in addition to a corroborating affidavit, was sufficient to prove that a tax return was
postmarked and mailed on the alleged date. Anderson 966 F.2d at 491.1 Furthermore, in Lewis, a taxpayer provided credible evidence that the return was
mailed on the date alleged when he produced not only its own sworn testimony, but also three signed
and dated checks received by the IRS and bearing
the postmark date. 144 F.3d at 1223.
Here, Plaintiffs provide not only their own sworn
testimony that the Amended Return was mailed on
The affidavit declared that she went to the post office with the
taxpayer and waited for her in the car. Id. at 489. The taxpayer
returned to the car without the envelope containing the tax return. Id.

1

App.41a
June 21, 2011, but also a sworn affidavit from their
former assistant. This affidavit details how the assistant placed the Amended Return in an envelope
addressed to the IRS, placed the appropriate postage
on the envelope, and deposited it in the mail. (Lynch
Decl. Ex. B, ECF No. 30.) To rebut this presumption,
the government offers IRS records that reflect that
the Amended Return was never received. (Greene
Decl. Exs. D and F, ECF No. 27-3.) The credibility of
each party’s evidence is for a jury to weigh, and is
not a determination made at summary judgment.
The Court does find, however, that Plaintiffs have
shown a triable issue of material fact as to the timely
mailing of the Amended Return.
V. CONCLUSION
Plaintiffs have provided sufficient evidence to
show a triable issue of material fact with respect to
the timely filing of their refund claim. Therefore, a
triable issue exists as to Defendant’s waiver of sovereign immunity in this case.
For these reasons, the Court DENIES Defendant’s Motion for Summary Judgment.
IT IS SO ORDERED.

App.42a
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
FILED JUN 25 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS
No. 17-55115; 17-55354
D.C. No. 2:15-cv-06004-RGK-AGR
Central District of California, Los Angeles
HOWARD L. BALDWIN; KAREN BALDWIN, Plaintiffs-Appellees,
v.
UNITED STATES OF AMERICA,
Defendant-Appellant.
ORDER
Before: GRABER and WATFORD, Circuit Judges,
and ZOUHARY,* District Judge.
The panel unanimously votes to deny the petition for panel rehearing. Judges Graber and Watford
vote to deny the petition for rehearing en banc, and
Judge Zouhary so recommends. The full court has
been advised of the petition for rehearing en banc,
and no judge requested a vote on whether to rehear
the matter en banc. Fed. R. App. P. 35. The petition
for panel rehearing and rehearing en banc, filed May
29, 2019, is DENIED.
* The Honorable Jack Zouhary, United States District Judge for the Northern District of Ohio, sitting
by designation.

App.43a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Case No. 2:15-cv-06004 RGK (AGRx)
HOWARD L. BALDWIN AND KAREN BALDWIN,
Plaintiffs,
v.
UNITED STATES OF AMERICA,
Defendant.
JUDGMENT
This action came under consideration before the
Court as a bench trial on November 22, 2016. The
Court after having considered all relevant evidence
and argument of counsel issued its Opinion and Order re Bench Trial on December 2, 2016, finding that
Plaintiffs Howard and Karen Baldwin are the prevailing parties in this action.
IT IS ORDERED AND ADJUDGED that judgment is hereby entered in favor of Plaintiffs Howard
and Karen Baldwin and against Defendant United
States of America in the amount of $167,663 as a refund of taxes paid for the federal income tax period
ending December 31, 2005, plus statutory interest
accruing on this amount pursuant to 26 U.S.C. §§
6611, 6621 and 6622.
Date: December 7, 2016
/s/ R. Gary Klausner
United States District Judge

App.44a
Internal Revenue Code § 6511, 26 U.S.C. § 6511
Limitations on credit or refund
(a) Period of limitation on filing claim.—
Claim for credit or refund of an overpayment of any tax
imposed by this title in respect of which tax the taxpayer
is required to file a return shall be filed by the taxpayer
within 3 years from the time the return was filed or 2
years from the time the tax was paid, whichever of such
periods expires the later, or if no return was filed by the
taxpayer, within 2 years from the time the tax was paid.
Claim for credit or refund of an overpayment of any tax
imposed by this title which is required to be paid by
means of a stamp shall be filed by the taxpayer within 3
years from the time the tax was paid.
(b) Limitation on allowance of credits and refunds.—
(1) Filing of claim within prescribed period.—
No credit or refund shall be allowed or made after the
expiration of the period of limitation prescribed in
subsection (a) for the filing of a claim for credit or refund, unless a claim for credit or refund is filed by the
taxpayer within such period.
***
(d) Special rules applicable to income taxes.—
***
(2) Special period of limitation with respect to
net operating loss or capital loss carrybacks.—
(A) Period of limitation.—If the claim for credit
or refund relates to an overpayment attributable

App.45a
to a net operating loss carryback or a capital loss
carryback, in lieu of the 3-year period of limitation
prescribed in subsection (a), the period shall be
that period which ends 3 years after the time prescribed by law for filing the return (including extensions thereof) for the taxable year of the net operating loss or net capital loss which results in
such carryback, or the period prescribed in subsection (c) in respect of such taxable year, whichever expires later. In the case of such a claim, the
amount of the credit or refund may exceed the
portion of the tax paid within the period provided
in subsection (b)(2) or (c), whichever is applicable,
to the extent of the amount of the overpayment
attributable to such carryback.
***

App.46a
Internal Revenue Code § 7422, 26 U.S.C. § 7422
Civil actions for refund
(a) No suit prior to filing claim for refund.—
No suit or proceeding shall be maintained in any court
for the recovery of any internal revenue tax alleged to
have been erroneously or illegally assessed or collected,
or of any penalty claimed to have been collected without
authority, or of any sum alleged to have been excessive
or in any manner wrongfully collected, until a claim for
refund or credit has been duly filed with the Secretary,
according to the provisions of law in that regard, and the
regulations of the Secretary established in pursuance
thereof.
***

App.47a
Internal Revenue Code § 7502, 26 U.S.C. § 7502
Timely mailing treated as timely filing and paying
(a) General rule.—
(1) Date of delivery.—
If any return, claim, statement, or other document required to be filed, or any payment required to be
made, within a prescribed period or on or before a
prescribed date under authority of any provision of
the internal revenue laws is, after such period or such
date, delivered by United States mail to the agency,
officer, or office with which such return, claim, statement, or other document is required to be filed, or to
which such payment is required to be made, the date
of the United States postmark stamped on the cover
in which such return, claim, statement, or other document, or payment, is mailed shall be deemed to be
the date of delivery or the date of payment, as the
case may be.
(2) Mailing requirements.—This subsection shall
apply only if—
(A) the postmark date falls within the prescribed
period or on or before the prescribed date—
(i) for the filing (including any extension
granted for such filing) of the return, claim,
statement, or other document, or
(ii) for making the payment (including any extension granted for making such payment),
and
(B) the return, claim, statement, or other document, or payment was, within the time prescribed
in subparagraph (A), deposited in the mail in the
United States in an envelope or other appropriate
wrapper, postage prepaid, properly addressed to
the agency, officer, or office with which the return,

App.48a
claim, statement, or other document is required to
be filed, or to which such payment is required to
be made.
(b) Postmarks.—
This section shall apply in the case of postmarks not
made by the United States Postal Service only if and to
the extent provided by regulations prescribed by the Secretary.
(c) Registered and certified mailing; electronic filing.—
(1) Registered mail.—For purposes of this section,
if any return, claim, statement, or other document, or
payment, is sent by United States registered mail—
(A) such registration shall be prima facie evidence
that the return, claim, statement, or other document was delivered to the agency, officer, or office
to which addressed; and
(B) the date of registration shall be deemed the
postmark date.
(2) Certified mail; electronic filing.—The Secretary is authorized to provide by regulations the extent to which the provisions of paragraph (1) with respect to prima facie evidence of delivery and the postmark date shall apply to certified mail and electronic
filing.
(d) Exceptions.—
This section shall not apply with respect to—
(1) the filing of a document in, or the making of a payment to, any court other than the Tax Court,
(2) currency or other medium of payment unless actually received and accounted for, or
(3) returns, claims, statements, or other documents,
or payments, which are required under any provision

App.49a
of the internal revenue laws or the regulations thereunder to be delivered by any method other than by
mailing.
(e) Mailing of deposits.—
(1) Date of deposit.—If any deposit required to be
made (pursuant to regulations prescribed by the Secretary under section 6302(c)) on or before a prescribed
date is, after such date, delivered by the United
States mail to the bank, trust company, domestic
building and loan association, or credit union authorized to receive such deposit, such deposit shall be
deemed received by such bank, trust company, domestic building and loan association, or credit union
on the date the deposit was mailed.
(2) Mailing requirements.—Paragraph (1) shall
apply only if the person required to make the deposit
establishes that—
(A) the date of mailing falls on or before the second
day before the prescribed date for making the deposit (including any extension of time granted for
making such deposit), and
(B) the deposit was, on or before such second day,
mailed in the United States in an envelope or
other appropriate wrapper, postage prepaid,
properly addressed to the bank, trust company,
domestic building and loan association, or credit
union authorized to receive such deposit.
In applying subsection (c) for purposes of this subsection, the term “payment” includes “deposit”, and
the reference to the postmark date refers to the date
of mailing.
(3) No application to certain deposits.—Paragraph (1) shall not apply with respect to any deposit
of $20,000 or more by any person who is required to
deposit any tax more than once a month.

App.50a
(f) Treatment of private delivery services.—
(1) In general.—
Any reference in this section to the United States
mail shall be treated as including a reference to any
designated delivery service, and any reference in this
section to a postmark by the United States Postal
Service shall be treated as including a reference to
any date recorded or marked as described in paragraph (2)(C) by any designated delivery service.
(2) Designated delivery service.—
For purposes of this subsection, the term “designated
delivery service” means any delivery service provided
by a trade or business if such service is designated by
the Secretary for purposes of this section. The Secretary may designate a delivery service under the preceding sentence only if the Secretary determines that
such service—
(A) is available to the general public,
(B) is at least as timely and reliable on a regular
basis as the United States mail,
(C) records electronically to its data base, kept in
the regular course of its business, or marks on the
cover in which any item referred to in this section
is to be delivered, the date on which such item was
given to such trade or business for delivery, and
(D) meets such other criteria as the Secretary may
prescribe.
(3) Equivalents of registered and certified
mail.—
The Secretary may provide a rule similar to the rule
of paragraph (1) with respect to any service provided
by a designated delivery service which is substantially equivalent to United States registered or certified mail.

App.51a
28 U.S.C. § 1346
United States as defendant
(a) The district courts shall have original jurisdiction,
concurrent with the United States Court of Federal
Claims, of:
(1) Any civil action against the United States for the
recovery of any internal-revenue tax alleged to have
been erroneously or illegally assessed or collected, or
any penalty claimed to have been collected without
authority or any sum alleged to have been excessive
or in any manner wrongfully collected under the internal-revenue laws[.]
***

App.52a
26 C.F.R. § 301.7502-1
[Old Version applicable during June 2011, 66 Fed.
Reg. 2257-01 (Jan. 11, 2001)]
Timely mailing of documents and payments
treated as timely filing and paying.
(a) General rule.
Section 7502 provides that, if the requirements of that
section are met, a document or payment is deemed to be
filed or paid on the date of the postmark stamped on the
envelope or other appropriate wrapper (envelope) in
which the document or payment was mailed. Thus, if the
envelope that contains the document or payment has a
timely postmark, the document or payment is considered
timely filed or paid even if it is received after the last
date, or the last day of the period, prescribed for filing the
document or making the payment. Section 7502 does not
apply in determining whether a failure to file a return or
pay a tax has continued for an additional month or fraction thereof for purposes of computing the penalties and
additions to tax imposed by section 6651. Except as provided in section 7502(e) and § 301.7502–2, relating to the
timely mailing of deposits, and paragraph (d) of this section, relating to electronically filed documents, section
7502 is applicable only to those documents or payments
as defined in paragraph (b) of this section and only if the
document or payment is mailed in accordance with paragraph (c) of this section and is delivered in accordance
with paragraph (e) of this section.
(b) Definitions—
(1) Document defined.
(i) The term document, as used in this section,
means any return, claim, statement, or other document required to be filed within a prescribed

App.53a
period or on or before a prescribed date under authority of any provision of the internal revenue
laws, except as provided in paragraph (b)(1)(ii),
(iii), or (iv) of this section.
(ii) The term does not include returns, claims,
statements, or other documents that are required
under any provision of the internal revenue laws
or the regulations thereunder to be delivered by
any method other than mailing.
(iii) The term does not include any document filed
in any court other than the Tax Court, but the
term does include any document filed with the
Tax Court, including a petition and a notice of appeal of a decision of the Tax Court.
(iv) The term does not include any document that
is mailed to an authorized financial institution
under section 6302. However, see § 301.7502–2
for special rules relating to the timeliness of deposits and documents required to be filed with deposits.
(2) Claims for refund. In the case of certain taxes,
a return may constitute a claim for credit or refund.
In such a case, section 7502 is applicable to the claim
for credit or refund if the conditions of such section
are met, irrespective of whether the claim is also a
return. For rules regarding claims for refund on late
filed tax returns, see paragraph (f) of this section.
(3) Payment defined.
(i) The term payment, as used in this section,
means any payment required to be made within a
prescribed period or on or before a prescribed date
under the authority of any provision of the internal revenue laws, except as provided in paragraph (b)(3)(ii), (iii), (iv), or (v) of this section.
(ii) The term does not include any payment that is
required under any provision of the internal

App.54a
revenue laws or the regulations thereunder to be
delivered by any method other than mailing. See,
for example, section 6302(h) and the regulations
thereunder regarding electronic funds transfer.
(iii) The term does not include any payment,
whether it is made in the form of currency or other
medium of payment, unless it is actually received
and accounted for. For example, if a check is used
as the form of payment, this section does not apply unless the check is honored upon presentation.
(iv) The term does not include any payment to any
court other than the Tax Court.
(v) The term does not include any deposit that is
required to be made with an authorized financial
institution under section 6302. However, see §
301.7502–2 for rules relating to the timeliness of
deposits.
(4) Last date or last day prescribed. As used in
this section, the term the last date, or the last day of
the period, prescribed for filing the document or making the payment includes any extension of time
granted for that action. When the last date, or the last
day of the period, prescribed for filing the document
or making the payment falls on a Saturday, Sunday
or legal holiday, section 7503 applies. Therefore, in
applying the rules of this paragraph (b)(4), the next
succeeding day that is not a Saturday, Sunday, or legal holiday is treated as the last date, or the last day
of the period, prescribed for filing the document or
making the payment. Also, when the last date, or the
last day of the period, prescribed for filing the document or making the payment falls within a period
disregarded under section 7508 or section 7508A, the
next succeeding day after the expiration of the section
7508 period or section 7508A period that is not a

App.55a
Saturday, Sunday, or legal holiday is treated as the
last date, or the last day of the period, prescribed for
filing the document or making the payment.
(c) Mailing requirements—
(1) In general. Section 7502 does not apply unless
the document or payment is mailed in accordance
with the following requirements:
(i) Envelope and address. The document or
payment must be contained in an envelope,
properly addressed to the agency, officer, or office
with which the document is required to be filed or
to which the payment is required to be made.
(ii) Timely deposited in U.S. mail. The document or payment must be deposited within the
prescribed time in the mail in the United States
with sufficient postage prepaid. For this purpose,
a document or payment is deposited in the mail in
the United States when it is deposited with the
domestic mail service of the U.S. Postal Service.
The domestic mail service of the U.S. Postal Service, as defined by the Domestic Mail Manual as
incorporated by reference in the postal regulations, includes mail transmitted within, among,
and between the United States of America, its territories and possessions, and Army post offices
(APO), fleet post offices (FPO), and the United
Nations, NY. (See Domestic Mail Manual, section
G011.2.1, as incorporated by reference in 39 CFR
111.1.) Section 7502 does not apply to any document or payment that is deposited with the mail
service of any other country.
(iii) Postmark—
(A) U.S. Postal Service postmark. If the postmark on the envelope is made by the U.S.
Postal Service, the postmark must bear a date

App.56a
on or before the last date, or the last day of the
period, prescribed for filing the document or
making the payment. If the postmark does not
bear a date on or before the last date, or the
last day of the period, prescribed for filing the
document or making the payment, the document or payment is considered not to be timely
filed or paid, regardless of when the document
or payment is deposited in the mail. Accordingly, the sender who relies upon the applicability of section 7502 assumes the risk that the
postmark will bear a date on or before the last
date, or the last day of the period, prescribed
for filing the document or making the payment. See, however, paragraph (c)(2) of this
section with respect to the use of registered
mail or certified mail to avoid this risk. If the
postmark on the envelope is made by the U.S.
Postal Service but is not legible, the person
who is required to file the document or make
the payment has the burden of proving the
date that the postmark was made. Furthermore, if the envelope that contains a document
or payment has a timely postmark made by
the U.S. Postal Service, but it is received after
the time when a document or payment postmarked and mailed at that time would ordinarily be received, the sender may be required
to prove that it was timely mailed.
(B) Postmark made by other than U.S. Postal
Service—
(1) In general. If the postmark on the envelope is made other than by the U.S. Postal
Service—
(i) The postmark so made must bear a
legible date on or before the last date,

App.57a
or the last day of the period, prescribed
for filing the document or making the
payment; and
(ii) The document or payment must be
received by the agency, officer, or office
with which it is required to be filed not
later than the time when a document or
payment contained in an envelope that
is properly addressed, mailed, and sent
by the same class of mail would ordinarily be received if it were postmarked
at the same point of origin by the U.S.
Postal Service on the last date, or the
last day of the period, prescribed for filing the document or making the payment.
(2) Document or payment received late. If
a document or payment described in paragraph (c)(1)(iii)(B)(1) is received after the
time when a document or payment so
mailed and so postmarked by the U.S.
Postal Service would ordinarily be received, the document or payment is treated
as having been received at the time when
a document or payment so mailed and so
postmarked would ordinarily be received if
the person who is required to file the document or make the payment establishes—
(i) That it was actually deposited in the
U.S. mail before the last collection of
mail from the place of deposit that was
postmarked (except for the metered
mail) by the U.S. Postal Service on or
before the last date, or the last day of
the period, prescribed for filing the document or making the payment;

App.58a
(ii) That the delay in receiving the document or payment was due to a delay
in the transmission of the U.S. mail;
and
(iii) The cause of the delay.
(3) U.S. and non-U.S. postmarks. If the envelope has a postmark made by the U.S.
Postal Service in addition to a postmark
not so made, the postmark that was not
made by the U.S. Postal Service is disregarded, and whether the envelope was
mailed in accordance with this paragraph
(c)(1)(iii)(B) will be determined solely by
applying the rule of paragraph (c)(1)(iii)(A)
of this section.
(2) Registered or certified mail. If the document
or payment is sent by U.S. registered mail, the date
of registration of the document or payment is treated
as the postmark date. If the document or payment is
sent by U.S. certified mail and the sender's receipt is
postmarked by the postal employee to whom the document or payment is presented, the date of the U.S.
postmark on the receipt is treated as the postmark
date of the document or payment. Accordingly, the
risk that the document or payment will not be postmarked on the day that it is deposited in the mail
may be eliminated by the use of registered or certified
mail.
(d) Electronically filed documents—
(1) In general. A document filed electronically with
an electronic return transmitter (as defined in paragraph (d)(3)(i) of this section and authorized pursuant to paragraph (d)(2) of this section) in the manner
and time prescribed by the Commissioner is deemed
to be filed on the date of the electronic postmark (as

App.59a
defined in paragraph (d)(3)(ii) of this section) given by
the authorized electronic return transmitter. Thus, if
the electronic postmark is timely, the document is
considered filed timely although it is received by the
agency, officer, or office after the last date, or the last
day of the period, prescribed for filing such document.
(2) Authorized electronic return transmitters.
The Commissioner may enter into an agreement with
an electronic return transmitter or prescribe in
forms, instructions, or other appropriate guidance
the procedures under which the electronic return
transmitter is authorized to provide taxpayers with
an electronic postmark to acknowledge the date and
time that the electronic return transmitter received
the electronically filed document.
(3) Definitions—
(i) Electronic return transmitter. For purposes of this paragraph (d), the term electronic return transmitter has the same meaning as contained in section 3.01(4) of Rev. Proc. 2000–31
(2000–31 I.R.B. 146 (July 31, 2000)) (see §
601.601(d)(2) of this chapter) or in procedures prescribed by the Commissioner.
(ii) Electronic postmark. For purposes of this
paragraph (d), the term electronic postmark
means a record of the date and time (in a particular time zone) that an authorized electronic return transmitter receives the transmission of a
taxpayer's electronically filed document on its
host system. However, if the taxpayer and the
electronic return transmitter are located in different time zones, it is the taxpayer's time zone that
controls the timeliness of the electronically filed
document.

App.60a
(e) Delivery—
(1) Except as provided in section 7502(f) and paragraph (d) of this section, section 7502 is not applicable
unless the document or payment is delivered by U.S.
mail to the agency, officer, or office with which the
document is required to be filed or to which payment
is required to be made. However, in the case of a document (but not a payment) sent by registered or certified mail, proof that the document was properly registered or that a postmarked certified mail sender's
receipt was properly issued and that the envelope
was properly addressed to the agency, officer, or office
constitutes prima facie evidence that the document
was delivered to the agency, officer, or office.
(2) Section 7502 is applicable to the determination of
whether a claim for credit or refund is timely filed for
purposes of section 6511(a), assuming all the requirements of section 7502 are satisfied. Section 7502 is
also applicable when a claim for credit or refund is
delivered after the last day of the period specified in
section 6511(b)(2)(A) or in any other corresponding
provision of law relating to the limit on the amount of
credit or refund that is allowable.
(3) Example. The rules of paragraph (e)(2) of this
section are illustrated by the following example:
Example.
(i) Taxpayer A, an individual, mailed his
1998 Form 1040, “U.S. Individual Income
Tax Return,” on May 10, 1999, but no tax
was paid at that time because the tax liability disclosed by the return had been
completely satisfied by the income tax that
had been withheld on A's wages. On April
15, 2002, A mails in accordance with the
requirements of this section, a Form
1040X, “U.S. Amended Individual Income

App.61a
Tax Return,” claiming a refund of a portion
of the tax that had been paid through withholding during 1998. The date of the postmark on the envelope containing the claim
for refund is April 15, 2002. The claim is
received by the Internal Revenue Service
(IRS) on April 18, 2002.
(ii) Under section 6511(a), A's claim for refund is timely if filed within three years
from May 10, 1999, the date on which A's
1998 return was filed. However, as a result
of the limitations of section 6511(b)(2)(A),
if his claim is not filed within three years
after April 15, 1999, the date on which he
is deemed under section 6513 to have paid
his 1998 tax, he is not entitled to any refund. Thus, because A's claim for refund is
postmarked and mailed in accordance with
the requirements of this section and is delivered after the last day of the period specified in section 6511(b)(2)(A), section 7502
is applicable and the claim is deemed to
have been filed on April 15, 2002.
(f) Claim for credit or refund on late filed tax return—
(1) In general. Generally, an original income tax return may constitute a claim for credit or refund of income tax. See § 301.6402–3(a)(5). Other original tax
returns can also be considered claims for credit or refund if the liability disclosed on the return is less than
the amount of tax that has been paid. If section 7502
would not apply to a return (but for the operation of
paragraph (f)(2) of this section) that is also considered
a claim for credit or refund because the envelope that
contains the return does not have a postmark dated

App.62a
on or before the due date of the return, section 7502
will apply separately to the claim for credit or refund
if—
(i) The date of the postmark on the envelope is
within the period that is three years (plus the period of any extension of time to file) from the day
the tax is paid or considered paid (see section
6513), and the claim for credit or refund is delivered after this three-year period; and
(ii) The conditions of section 7502 are otherwise
met.
(2) Filing date of late filed return. If the conditions of paragraph (f)(1) of this section are met, the
late filed return will be deemed filed on the postmark
date.
(3) Example. The rules of this paragraph (f) are illustrated by the following example:
Example.
(i) Taxpayer A, an individual, mailed his
2001 Form 1040, “U.S. Individual Income
Tax Return,” on April 15, 2005, claiming a
refund of amounts paid through withholding during 2001. The date of the postmark
on the envelope containing the return and
claim for refund is April 15, 2005. The return and claim for refund are received by
the Internal Revenue Service (IRS) on
April 18, 2005. Amounts withheld in 2001
exceeded A's tax liability for 2001 and are
treated as paid on April 15, 2002, pursuant
to section 6513.
(ii) Even though the date of the postmark
on the envelope is after the due date of the
return, the claim for refund and the late
filed return are treated as filed on the postmark date for purposes of this paragraph

App.63a
(f). Accordingly, the return will be treated
as filed on April 15, 2005. In addition, the
claim for refund will be treated as timely
filed on April 15, 2005. Further, the entire
amount of the refund attributable to withholding is allowable as a refund under section 6511(b)(2)(A).
(g) Effective date—
(1) In general. Except as provided in paragraphs
(g)(2) and (3) of this section, the rules of this section
apply to any payment or document mailed and delivered in accordance with the requirements of this section in an envelope bearing a postmark dated after
January 11, 2001.
(2) Claim for credit or refund on late filed tax
return. Paragraph (f) of this section applies to any
claim for credit or refund on a late filed tax return
described in paragraph (f)(1) of this section except for
those claims for credit or refund which (without regard to paragraph (f) of this section) were barred by
the operation of section 6532(a) or any other law or
rule of law (including res judicata) as of January 11,
2001.
(3) Electronically filed documents. This section
applies to any electronically filed return, claim, statement, or other document transmitted to an electronic
return transmitter that is authorized to provide an
electronic postmark pursuant to paragraph (d)(2) of
this section after January 11, 2001.

App.64a
26 C.F.R. § 301.7502-1
[Current Version, 76 Fed. Reg. 52561-01 (Aug. 23,
2011)]
Timely mailing of documents and payments
treated as timely filing and paying
(a) General rule.
Section 7502 provides that, if the requirements of that
section are met, a document or payment is deemed to be
filed or paid on the date of the postmark stamped on the
envelope or other appropriate wrapper (envelope) in
which the document or payment was mailed. Thus, if the
envelope that contains the document or payment has a
timely postmark, the document or payment is considered
timely filed or paid even if it is received after the last
date, or the last day of the period, prescribed for filing the
document or making the payment. Section 7502 does not
apply in determining whether a failure to file a return or
pay a tax has continued for an additional month or fraction thereof for purposes of computing the penalties and
additions to tax imposed by section 6651. Except as provided in section 7502(e) and § 301.7502–2, relating to the
timely mailing of deposits, and paragraph (d) of this section, relating to electronically filed documents, section
7502 is applicable only to those documents or payments
as defined in paragraph (b) of this section and only if the
document or payment is mailed in accordance with paragraph (c) of this section and is delivered in accordance
with paragraph (e) of this section.
(b) Definitions—
(1) Document defined.
(i) The term document, as used in this section,
means any return, claim, statement, or other document required to be filed within a prescribed

App.65a
period or on or before a prescribed date under authority of any provision of the internal revenue
laws, except as provided in paragraph (b)(1)(ii),
(iii), or (iv) of this section.
(ii) The term does not include returns, claims,
statements, or other documents that are required
under any provision of the internal revenue laws
or the regulations thereunder to be delivered by
any method other than mailing.
(iii) The term does not include any document filed
in any court other than the Tax Court, but the
term does include any document filed with the
Tax Court, including a petition and a notice of appeal of a decision of the Tax Court.
(iv) The term does not include any document that
is mailed to an authorized financial institution
under section 6302. However, see § 301.7502–2
for special rules relating to the timeliness of deposits and documents required to be filed with deposits.
(2) Claims for refund—
(i) In general. In the case of certain taxes, a return may constitute a claim for credit or refund.
Section 7502 is applicable to the determination of
whether a claim for credit or refund is timely filed
for purposes of section 6511(a) if the conditions of
section 7502 are met, irrespective of whether the
claim is also a return. For rules regarding claims
for refund on late filed tax returns, see paragraph
(f) of this section. Section 7502 is also applicable
when a claim for credit or refund is delivered after
the last day of the period specified in section
6511(b)(2)(A) or in any other corresponding provision of law relating to the limit on the amount of
credit or refund that is allowable.

App.66a
(ii) Example. The rules of paragraph (b)(2)(i) of
this section are illustrated by the following example:
Example.
(A) Taxpayer A, an individual, mailed
his 2004 Form 1040, “U.S. Individual
Income Tax Return,” on May 10, 2005,
but no tax was paid at that time because the tax liability disclosed by the
return had been completely satisfied by
the income tax that had been withheld
on A's wages. On April 15, 2008, A
mails, in accordance with the requirements of this section, a Form 1040X,
“Amended U.S. Individual Income Tax
Return,” claiming a refund of a portion
of the tax that had been paid through
withholding during 2004. The date of
the postmark on the envelope containing the claim for refund is April 15,
2008. The claim is received by the IRS
on April 18, 2008.
(B) Under section 6511(a), A's claim for
refund is timely if filed within three
years from May 10, 2005, the date on
which A's 2004 return was filed. As a
result of the limitations of section
6511(b)(2)(A), if A's claim is not filed
within three years after April 15, 2005,
the date on which A is deemed under
section 6513 to have paid his 2004 tax,
A is not entitled to any refund. Because
A's claim for refund is postmarked and
mailed in accordance with the requirements of this section and is delivered
after the last day of the period specified

App.67a
in section 6511(b)(2)(A), section 7502 is
applicable and the claim is deemed to
have been filed on April 15, 2008.
(3) Payment defined.
(i) The term payment, as used in this section,
means any payment required to be made within a
prescribed period or on or before a prescribed date
under the authority of any provision of the internal revenue laws, except as provided in paragraph (b)(3)(ii), (iii), (iv), or (v) of this section.
(ii) The term does not include any payment that is
required under any provision of the internal revenue laws or the regulations thereunder to be delivered by any method other than mailing. See, for
example, section 6302(h) and the regulations
thereunder regarding electronic funds transfer.
(iii) The term does not include any payment,
whether it is made in the form of currency or other
medium of payment, unless it is actually received
and accounted for. For example, if a check is used
as the form of payment, this section does not apply unless the check is honored upon presentation.
(iv) The term does not include any payment to any
court other than the Tax Court.
(v) The term does not include any deposit that is
required to be made with an authorized financial
institution under section 6302. However, see §
301.7502–2 for rules relating to the timeliness of
deposits.
(4) Last date or last day prescribed. As used in
this section, the term the last date, or the last day of
the period, prescribed for filing the document or making the payment includes any extension of time
granted for that action. When the last date, or the last
day of the period, prescribed for filing the document

App.68a
or making the payment falls on a Saturday, Sunday
or legal holiday, section 7503 applies. Therefore, in
applying the rules of this paragraph (b)(4), the next
succeeding day that is not a Saturday, Sunday, or legal holiday is treated as the last date, or the last day
of the period, prescribed for filing the document or
making the payment. Also, when the last date, or the
last day of the period, prescribed for filing the document or making the payment falls within a period
disregarded under section 7508 or section 7508A, the
next succeeding day after the expiration of the section
7508 period or section 7508A period that is not a Saturday, Sunday, or legal holiday is treated as the last
date, or the last day of the period, prescribed for filing
the document or making the payment.
(c) Mailing requirements—
(1) In general. Section 7502 does not apply unless
the document or payment is mailed in accordance
with the following requirements:
(i) Envelope and address. The document or
payment must be contained in an envelope,
properly addressed to the agency, officer, or office
with which the document is required to be filed or
to which the payment is required to be made.
(ii) Timely deposited in U.S. mail. The document or payment must be deposited within the
prescribed time in the mail in the United States
with sufficient postage prepaid. For this purpose,
a document or payment is deposited in the mail in
the United States when it is deposited with the
domestic mail service of the U.S. Postal Service.
The domestic mail service of the U.S. Postal Service, as defined by the Domestic Mail Manual as
incorporated by reference in the postal regulations, includes mail transmitted within, among,

App.69a
and between the United States of America, its territories and possessions, and Army post offices
(APO), fleet post offices (FPO), and the United
Nations, NY. (See Domestic Mail Manual, section
G011.2.1, as incorporated by reference in 39 CFR
111.1.) Section 7502 does not apply to any document or payment that is deposited with the mail
service of any other country.
(iii) Postmark—
(A) U.S. Postal Service postmark. If the postmark on the envelope is made by the U.S.
Postal Service, the postmark must bear a date
on or before the last date, or the last day of the
period, prescribed for filing the document or
making the payment. If the postmark does not
bear a date on or before the last date, or the
last day of the period, prescribed for filing the
document or making the payment, the document or payment is considered not to be timely
filed or paid, regardless of when the document
or payment is deposited in the mail. Accordingly, the sender who relies upon the applicability of section 7502 assumes the risk that the
postmark will bear a date on or before the last
date, or the last day of the period, prescribed
for filing the document or making the payment. See, however, paragraph (c)(2) of this
section with respect to the use of registered
mail or certified mail to avoid this risk. If the
postmark on the envelope is made by the U.S.
Postal Service but is not legible, the person
who is required to file the document or make
the payment has the burden of proving the
date that the postmark was made. Furthermore, if the envelope that contains a document
or payment has a timely postmark made by

App.70a
the U.S. Postal Service, but it is received after
the time when a document or payment postmarked and mailed at that time would ordinarily be received, the sender may be required
to prove that it was timely mailed.
(B) Postmark made by other than U.S. Postal
Service—
(1) In general. If the postmark on the envelope is made other than by the U.S. Postal
Service—
(i) The postmark so made must bear a
legible date on or before the last date,
or the last day of the period, prescribed
for filing the document or making the
payment; and
(ii) The document or payment must be
received by the agency, officer, or office
with which it is required to be filed not
later than the time when a document or
payment contained in an envelope that
is properly addressed, mailed, and sent
by the same class of mail would ordinarily be received if it were postmarked
at the same point of origin by the U.S.
Postal Service on the last date, or the
last day of the period, prescribed for filing the document or making the payment.
(2) Document or payment received late. If
a document or payment described in paragraph (c)(1)(iii)(B)(1) is received after the
time when a document or payment so
mailed and so postmarked by the U.S.
Postal Service would ordinarily be received, the document or payment is treated
as having been received at the time when

App.71a
a document or payment so mailed and so
postmarked would ordinarily be received if
the person who is required to file the document or make the payment establishes—
(i) That it was actually deposited in the
U.S. mail before the last collection of
mail from the place of deposit that was
postmarked (except for the metered
mail) by the U.S. Postal Service on or
before the last date, or the last day of
the period, prescribed for filing the document or making the payment;
(ii) That the delay in receiving the document or payment was due to a delay
in the transmission of the U.S. mail;
and
(iii) The cause of the delay.
(3) U.S. and non-U.S. postmarks. If the envelope has a postmark made by the U.S.
Postal Service in addition to a postmark
not so made, the postmark that was not
made by the U.S. Postal Service is disregarded, and whether the envelope was
mailed in accordance with this paragraph
(c)(1)(iii)(B) will be determined solely by
applying the rule of paragraph (c)(1)(iii)(A)
of this section.
(2) Registered or certified mail. If the document
or payment is sent by U.S. registered mail, the date
of registration of the document or payment is treated
as the postmark date. If the document or payment is
sent by U.S. certified mail and the sender's receipt is
postmarked by the postal employee to whom the document or payment is presented, the date of the U.S.
postmark on the receipt is treated as the postmark
date of the document or payment. Accordingly, the

App.72a
risk that the document or payment will not be postmarked on the day that it is deposited in the mail
may be eliminated by the use of registered or certified
mail.
(3) Private delivery services. Under section
7502(f)(1), a service of a private delivery service
(PDS) may be treated as an equivalent to United
States mail for purposes of the postmark rule if the
Commissioner determines that the service satisfies
the conditions of section 7502(f)(2). Thus, the Commissioner may, in guidance published in the Internal
Revenue Bulletin (see § 601.601(d)(2)(ii)(b) of this
chapter), prescribe procedures and additional rules to
designate a service of a PDS for purposes of the postmark rule of section 7502(a).
(d) Electronically filed documents—
(1) In general. A document filed electronically with
an electronic return transmitter (as defined in paragraph (d)(3)(i) of this section and authorized pursuant to paragraph (d)(2) of this section) in the manner
and time prescribed by the Commissioner is deemed
to be filed on the date of the electronic postmark (as
defined in paragraph (d)(3)(ii) of this section) given by
the authorized electronic return transmitter. Thus, if
the electronic postmark is timely, the document is
considered filed timely although it is received by the
agency, officer, or office after the last date, or the last
day of the period, prescribed for filing such document.
(2) Authorized electronic return transmitters.
The Commissioner may enter into an agreement with
an electronic return transmitter or prescribe in
forms, instructions, or other appropriate guidance
the procedures under which the electronic return
transmitter is authorized to provide taxpayers with
an electronic postmark to acknowledge the date and

App.73a
time that the electronic return transmitter received
the electronically filed document.
(3) Definitions—
(i) Electronic return transmitter. For purposes of this paragraph (d), the term electronic return transmitter has the same meaning as contained in section 3.01(4) of Rev. Proc. 2000–31
(2000–31 I.R.B. 146 (July 31, 2000)) (see §
601.601(d)(2) of this chapter) or in procedures prescribed by the Commissioner.
(ii) Electronic postmark. For purposes of this
paragraph (d), the term electronic postmark
means a record of the date and time (in a particular time zone) that an authorized electronic return transmitter receives the transmission of a
taxpayer's electronically filed document on its
host system. However, if the taxpayer and the
electronic return transmitter are located in different time zones, it is the taxpayer's time zone that
controls the timeliness of the electronically filed
document.
(e) Delivery—
(1) General rule. Except as provided in section
7502(f) and paragraphs (c)(3) and (d) of this section,
section 7502 is not applicable unless the document or
payment is delivered by U.S. mail to the agency, officer, or office with which the document is required to
be filed or to which payment is required to be made.
(2) Exceptions to actual delivery—
(i) Registered and certified mail. In the case of
a document (but not a payment) sent by registered or certified mail, proof that the document
was properly registered or that a postmarked certified mail sender's receipt was properly issued
and that the envelope was properly addressed to

App.74a
the agency, officer, or office constitutes prima facie evidence that the document was delivered to
the agency, officer, or office. Other than direct
proof of actual delivery, proof of proper use of registered or certified mail, and proof of proper use of
a duly designated PDS as provided for by paragraph (e)(2)(ii) of this section, are the exclusive
means to establish prima facie evidence of delivery of a document to the agency, officer, or office
with which the document is required to be filed.
No other evidence of a postmark or of mailing will
be prima facie evidence of delivery or raise a presumption that the document was delivered.
(ii) Equivalents of registered and certified
mail. Under section 7502(f)(3), the Secretary may
extend the prima facie evidence of delivery rule of
section 7502(c)(1)(A) to a service of a designated
PDS, which is substantially equivalent to United
States registered or certified mail. Thus, the Commissioner may, in guidance published in the Internal Revenue Bulletin (see § 601.601(d)(2)(ii)(b)
of this chapter), prescribe procedures and additional rules to designate a service of a PDS for
purposes of demonstrating prima facie evidence of
delivery of a document pursuant to section
7502(c).
(f) Claim for credit or refund on late filed tax return—
(1) In general. Generally, an original income tax return may constitute a claim for credit or refund of income tax. See § 301.6402–3(a)(5). Other original tax
returns can also be considered claims for credit or refund if the liability disclosed on the return is less than
the amount of tax that has been paid. If section 7502
would not apply to a return (but for the operation of

App.75a
paragraph (f)(2) of this section) that is also considered
a claim for credit or refund because the envelope that
contains the return does not have a postmark dated
on or before the due date of the return, section 7502
will apply separately to the claim for credit or refund
if—
(i) The date of the postmark on the envelope is
within the period that is three years (plus the period of any extension of time to file) from the day
the tax is paid or considered paid (see section
6513), and the claim for credit or refund is delivered after this three-year period; and
(ii) The conditions of section 7502 are otherwise
met.
(2) Filing date of late filed return. If the conditions of paragraph (f)(1) of this section are met, the
late filed return will be deemed filed on the postmark
date.
(3) Example. The rules of this paragraph (f) are illustrated by the following example:
Example.
(i) Taxpayer A, an individual, mailed his
2001 Form 1040, “U.S. Individual Income
Tax Return,” on April 15, 2005, claiming a
refund of amounts paid through withholding during 2001. The date of the postmark
on the envelope containing the return and
claim for refund is April 15, 2005. The return and claim for refund are received by
the Internal Revenue Service (IRS) on
April 18, 2005. Amounts withheld in 2001
exceeded A's tax liability for 2001 and are
treated as paid on April 15, 2002, pursuant
to section 6513.
(ii) Even though the date of the postmark
on the envelope is after the due date of the

App.76a
return, the claim for refund and the late
filed return are treated as filed on the postmark date for purposes of this paragraph
(f). Accordingly, the return will be treated
as filed on April 15, 2005. In addition, the
claim for refund will be treated as timely
filed on April 15, 2005. Further, the entire
amount of the refund attributable to withholding is allowable as a refund under section 6511(b)(2)(A).
(g) Effective date—
(1) In general. Except as provided in paragraphs
(g)(2) and (3) of this section, the rules of this section
apply to any payment or document mailed and delivered in accordance with the requirements of this section in an envelope bearing a postmark dated after
January 11, 2001.
(2) Claim for credit or refund on late filed tax
return. Paragraph (f) of this section applies to any
claim for credit or refund on a late filed tax return
described in paragraph (f)(1) of this section except for
those claims for credit or refund which (without regard to paragraph (f) of this section) were barred by
the operation of section 6532(a) or any other law or
rule of law (including res judicata) as of January 11,
2001.
(3) Electronically filed documents. This section
applies to any electronically filed return, claim, statement, or other document transmitted to an electronic
return transmitter that is authorized to provide an
electronic postmark pursuant to paragraph (d)(2) of
this section after January 11, 2001.

App.77a
(4) Registered or certified mail as the means to
prove delivery of a document. Section 301.7502–
1(e)(2) will apply to all documents mailed after September 21, 2004.

